Final Assessment Report 06-06, September 22, 2006, “WebTrust Pre-Assessment of
GPO Certificate Authorities”


GPO implemented a Public Key Infrastructure (PKI) to support its “born digital and
published to the web” methodology to meet GPO customer expectations that documents
are official and authentic. The GPO PKI also directly supports GPO’s mission related to
electronic information dissemination and e-government. The GPO PKI recently became
cross-certified with the Federal Bridge Certificate Authority (FBCA) whose certification
provisions require that the GPO PKI undergo a compliance review. To satisfy this
compliance requirement, the GPO Office of Inspector General (OIG) tasked an
independent public accounting firm to conduct a WebTrust assessment of its Certificate
Authorities (CA). The assessment was conducted in accordance with the American
Institute of Certified Public Accountants (AICPA) “WebTrust Principles and Criteria for
Certificate Authorities.” The assessment represents an evaluation of whether GPO’s
assertions related to the adequacy and effectiveness of controls over its CA operations is
fairly stated based on underlying principles and evaluation criteria.

The purpose of the WebTrust pre-assessment was to identify gaps and deficiencies
between the current GPO PKI environment and the required criteria of the WebTrust
Program for CA. During the pre-assessment phase, the contractor performed procedures,
including testing where deemed appropriate, on GPO’s CA business processes,
supporting applications, and technologies related to GPO’s assertions regarding CA
operations. The OIG issued a sensitive pre-assessment report which summarized gaps
and deficiencies identified during the pre-assessment phase and made several
recommendations requiring GPO’s attention prior to finalization of the WebTrust
assessment. The GPO Chief Information Officer concurred with each of the pre-
assessment recommendations and took corrective actions prior to the final WebTrust
phase. During the final WebTrust phase, controls were tested to gather support for an
opinion regarding compliance with applicable WebTrust principles and criteria for
certification.
